                                               -
                                                                                                               ..?
                                                                                                                ,    r
                                                                                                                     i
                                                                                                               -   ,



                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

    Case Number: A-07050027                                                                      Page 1 of 1



          We received an allegation of plagiarism in an NSF proposal1,submitted by the subject as the sole
          PI. A review of the proposal suggested that a small amount of text appeared to have been copied.
          Consequently, we wrote to the subject for an explanation.

          The subject responded that some of the material was prepared by his collaborator. The
          collaborator provided a letter in support of the subject's use of this text. Further, the subject
          explained additional text came fiom a company's procedures, a copy of which he provided.
          Finally, the subject apologized for not filly distinguishing these materials appropriately in his
          proposal and explained that ignorance was no excuse.

          Because the amount of copied text was small and because the subject had permission to use a
          significant portion of the text in his proposal, we wrote the subject explaining we had closed the
          case, but, at the same time, reminding him about the community standards associated with
          appropriate citation of text used in proposals that is written by others




i
NSF OIG Form 2 (1 1/02)
I
